January 30, 2003

JERRY D. LANE
MANAGER, CAPITAL METRO OPERATIONS

SUBJECT: Audit Report – Sexual Harassment Prevention Measures in the Northern
         Virginia and Richmond Districts – Capital Metro Operations
         (Report Number LH-AR-03-003)

This report presents the results of our audit of sexual harassment prevention measures
in the Northern Virginia and Richmond Districts, Capital Metro Operations (Project
Number 02YG010LH001). Our overall objective was to determine if the districts had
adequate policies and procedures in place to prevent sexual harassment in the
workplace, and to effectively address sexual harassment complaints to mitigate liability.
This report is based on a self-initiated review, and is the third in a series of ten reports
we will be issuing regarding sexual harassment prevention measures Postal Service-
wide.

We found that the Northern Virginia and Richmond Districts’ sexual harassment policies
and procedures were adequate, employees found responsible for sexual harassment or
inappropriate actions/comments were appropriately disciplined or corrective action was
taken, and managers/supervisors were considered for exclusion from the Pay for
Performance Program. In addition, although no Postal Service national policy existed
regarding the retention time for informal complaint files, both districts were retaining files
indefinitely and storage of files was adequate. We also found, however, that most
sexual harassment complaints in both districts were not effectively addressed. The
Northern Virginia district manager advised us some action has been taken to correct the
deficiency in this district.

The report included two recommendations to help the Northern Virginia and Richmond
Districts improve their sexual harassment prevention program. Management agreed
with part of recommendation 1 and all of recommendation 2. The actions taken and
planned should correct some of the issues identified in this report. Management
disagreed, however, with the finding that most complaints were not effectively
addressed, and disagreed with part of recommendation 1 to fully document detailed
evidence of the actions taken to address complaints. The Office of Inspector General
(OIG) considers that part of recommendation 1 as unresolved and will address it in a
separate capping report to the senior vice president, Human Resources.
Management’s comments and our evaluation of these comments are included in this
report.

The OIG considers recommendations 1 and 2 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Chris Nicoloff, director, Labor Management,
at (214) 775-9114, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Suzanne F. Medvidovich
    Murry E. Weatherall
    Ellis A. Burgoyne
    Michael S. Furey
    Susan M. Duchek
Sexual Harassment Prevention Measures in the                          LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations

                                  TABLE OF CONTENTS

 Executive Summary                                                         i

 Part I

 Introduction                                                             1

     Background                                                           1
     Objective, Scope, and Methodology                                    1
     Prior Audit Coverage                                                 1

 Part II

 Audit Results                                                            2

     Policies and Procedures Adequate                                     2

     Employees Appropriately Disciplined or Corrective Action Taken        3

     Managers/Supervisors Considered for Exclusion from Pay for            5
     Performance

     Most Complaints Not Effectively Addressed                             7
     Recommendations                                                       8
     Management’s Comments                                                 8
     Evaluation of Management’s Comments                                   9

     File Retention and Storage Adequate                                 11

     Additional Management’s Comments                                    12
     Evaluation of Management’s Comments                                 12

 Appendix A. Objective, Scope, and Methodology                           13

 Appendix B. Management’s Comments                                       15




                                        Restricted Information
Sexual Harassment Prevention Measures in the                                        LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations

                                 EXECUTIVE SUMMARY
 Introduction                 This report presents the results of our audit of sexual
                              harassment prevention measures in the Northern Virginia
                              and Richmond Districts, located in Capital Metro
                              Operations. This review was self-initiated to determine if
                              the districts had adequate policies and procedures in place
                              to prevent sexual harassment in the workplace, and to
                              effectively address sexual harassment complaints to
                              mitigate liability.

 Results in Brief             The audit revealed that the Northern Virginia and Richmond
                              Districts’ sexual harassment policies and procedures were
                              adequate and that employees found responsible for sexual
                              harassment or inappropriate actions/comments were
                              appropriately disciplined or corrective action was taken. We
                              also found that managers/supervisors responsible for sexual
                              harassment or inappropriate actions/comments were
                              considered for exclusion from the Pay for Performance
                              Program. In addition, although no Postal Service national
                              policy existed regarding the retention time for informal
                              complaint files, both districts were retaining files indefinitely
                              and storage of files was adequate. Finally, we found that
                              most sexual harassment complaints in both districts were
                              not effectively addressed. The Northern Virginia district
                              manager advised us some action has been taken to correct
                              this deficiency in this district.

 Summary of                   The report includes two recommendations to help the
 Recommendations              Northern Virginia and Richmond Districts improve their
                              sexual harassment prevention program. We recommended
                              management establish controls to ensure managers and
                              supervisors effectively address all sexual harassment
                              complaints and inappropriate actions/comments of a sexual
                              nature and fully document detailed evidence of the actions
                              taken to address complaints; and the Equal Employment
                              Opportunity office notify district management of all
                              complaints of sexual harassment or inappropriate
                              actions/comments of a sexual nature.




                                                   i
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                   LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations


 Summary of                   Management agreed with part of recommendation 1 that
 Management’s                 managers and supervisors must effectively address all
 Comments                     sexual harassment complaints.

                              Management stated that they conducted fact-finding training
                              for investigators and will send memorandums to all
                              employees reiterating their obligations regarding sexual
                              harassment in the workplace.

                              Management disagreed, however, with the finding that most
                              sexual harassment complaints were not effectively
                              addressed and with part of recommendation 1 that they fully
                              document detailed evidence of the actions taken to address
                              complaints. They stated this would require they depart from
                              Postal Service policy. They said they fully recognized and
                              supported their responsibilities and believe their managers
                              fulfilled their obligations in that regard. Management also
                              stated that because our report proposed changes to Postal
                              Service policy, any changes to the policy should be
                              addressed to Postal Service Headquarters.

                              Management agreed with recommendation 2 that the district
                              Equal Employment Opportunity office notifies management
                              of all complaints and this will be reiterated in a
                              memorandum to all district managers by February 2003.

                              Finally, management was unable to confirm the expenditure
                              of $154,750 stated in the background of the report and
                              further stated the report made determinations based on
                              requirements that extended beyond Postal Service policy.
                              Management’s comments, in their entirety, are included in
                              Appendix B of this report.

 Overall Evaluation of        Management’s actions taken or planned are responsive to
 Management’s                 the first part of recommendation 1 and recommendation 2.
 Comments                     However, management’s response is not responsive, and
                              does not meet the full intent of the second part of
                              recommendation 1, to fully document detailed evidence of
                              the actions taken to address complaints. We believe that
                              management’s concern that following the recommendation
                              would cause it to depart from Postal Service policy is
                              unfounded. Postal Service policy is clear that serious
                              complaints must be documented and further provides
                              that “When in doubt, document.” We believe the policy


                                                   ii
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                                             LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations

                                    does not limit management from documenting all actions.
                                    Additionally, we agree with management that a change to
                                    national policy should be referred to the headquarters level,
                                    and the report states we will address this in our capping
                                    report. The OIG considers recommendation 1 as
                                    unresolved and will address it in a separate capping report. 1




1
 We will issue a capping report on the audit results for the nine areas we visited, including Capital Metro Operations,
where recommendations regarding national policy will be made to the senior vice president, Human Resources.



                                                         iii
                                               Restricted Information
Sexual Harassment Prevention Measures in the                                                       LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations

                                              INTRODUCTION
    Background                       Sexual harassment is defined by law as unwelcome sexual
                                     advances, requests for sexual favors, and other verbal or
                                     physical conduct of a sexual nature that becomes a term or
                                     condition of employment. According to a Postal Service
                                     Law Department report, in fiscal years (FY) 2000 and 2001,
                                     the Postal Service paid approximately $154,7502 for sexual
                                     harassment judgments and settlements in Capital Metro
                                     Operations.

    Objective, Scope, and            Our overall objective was to determine if the districts had
    Methodology                      adequate policies and procedures in place to prevent sexual
                                     harassment in the workplace, and to effectively address
                                     sexual harassment complaints to mitigate liability. Our
                                     objective, scope, and methodology are discussed in
                                     Appendix A.

    Prior Audit Coverage             We did not identify any prior audits or reviews related to the
                                     objective of this review in these two districts.




2
    This amount represents two complaints. Neither complaint was within the scope of our review.



                                                           1
                                                Restricted Information
Sexual Harassment Prevention Measures in the                                                           LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations

                                             AUDIT RESULTS
    Policies and        We found that the Northern Virginia and Richmond Districts
    Procedures Adequate had adequate policies and procedures that should enable
                        district management to identify and prevent sexual
                        harassment or inappropriate actions/comments, and provide
                        management with guidance to respond effectively to
                        complaints, thus mitigating liability and costs.

                                   We also found the districts:

                                        •   Established as district policies, Postal Service
                                            Publication 552, Manager’s Guide to Understanding
                                            Sexual Harassment, and Publication 553, Employee’s
                                            Guide to Understanding Sexual Harassment.

                                        •   Used Voice of the Employee surveys3 to monitor the
                                            work environment and when necessary provided
                                            additional training to raise awareness.

                                   We also found:

                                        •   Capital Metro Operations issued a tool kit in
                                            February 1999, to internal investigative team
                                            members that provided a step-by-step guide for
                                            conducting a prompt and thorough investigation.

                                        •   The Richmond District introduced a program in
                                            April 2000, entitled, “Principled Leadership,” to all
                                            employees. The program consisted of a video and
                                            pamphlet pledging six principled leadership skills
                                            including the prevention of sexual harassment.




3
  The Voice of the Employee survey was a data collection instrument that the Postal Service had established to help
improve workplace relationships and to ensure all employees were treated with fairness, felt safe in their workplace,
had opportunities to participate in improvements, and took pride in being Postal Service employees.



                                                          2
                                               Restricted Information
Sexual Harassment Prevention Measures in the                                                            LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations


    Employees Appro-                 We found that employees responsible for sexual harassment
    priately Disciplined             or inappropriate actions/comments were appropriately
    or Corrective Action             disciplined, or corrective action was taken.
    Taken
                                     Equal Employment Opportunity Commission 1990 and
                                     1999 guidelines recommended agencies take immediate
                                     and appropriate corrective action, including discipline, when
                                     sexual harassment occurred. Postal Service policy stated
                                     employees engaged in sexual harassment would be subject
                                     to disciplinary action, up to and including removal. The
                                     policy also stated that disciplinary action might result even if
                                     the conduct was not sexual harassment as defined by the
                                     law, but was inappropriate and of a sexual nature.

                                     Our review of formal and informal4 complaints in the
                                     Northern Virginia and Richmond Districts showed that:

                                         •    Of the nine formal and informal sexual harassment
                                              complaints filed in the Northern Virginia District,
                                              sexual harassment or inappropriate
                                              actions/comments were not substantiated in four, and
                                              substantiated in three. For the remaining two
                                              complaints, management did not conduct an inquiry
                                              or investigation to determine whether sexual
                                              harassment or inappropriate actions/comments had
                                              occurred, and thus no discipline or corrective action
                                              was considered or taken.

                                              – In the three substantiated complaints,
                                                three employees were involved--two were
                                                appropriately disciplined and the third employee
                                                resigned.

                                         •    Of the eight formal and informal complaints filed in the
                                              Richmond District, sexual harassment or inappropriate
                                              actions/comments were not substantiated in two, and
                                              substantiated in three. For the remaining three
                                              complaints, management did not conduct an inquiry or
                                              investigation to determine whether sexual harassment
                                              or inappropriate actions/comments had occurred, and
                                              thus no discipline or corrective action was considered
                                              or taken.

4
    The term “informal” complaint refers to those not filed using the Equal Employment Opportunity process.



                                                           3
                                                Restricted Information
Sexual Harassment Prevention Measures in the                                     LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations


                                      – In the three substantiated complaints,
                                        three employees were involved and all were
                                        appropriately disciplined or corrective action was
                                        taken.

                                      – In response to an unsubstantiated anonymous
                                        complaint in the Richmond District, a climate
                                        assessment was conducted that resulted in the
                                        implementation of an action plan that included
                                        steps to reduce sexual harassment.




                                                   4
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                                    LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations


    Managers/                    We found that managers/supervisors found responsible for
    Supervisors                  sexual harassment or inappropriate actions/comments were
    Considered for               considered for exclusion from the Pay for Performance
    Exclusion from Pay           Program5 in the Northern Virginia and Richmond Districts.
    for Performance
                                 Equal Employment Opportunity Commission guidelines
                                 included a reduction in wages as an effective corrective
                                 measure to stop harassment and ensure it does not reoccur.
                                 Postal Service policy stated an employee whose conduct
                                 was clearly unacceptable may be excluded from the Pay for
                                 Performance Program. The Postal Service described
                                 unacceptable behavior as “notoriously disgraceful or
                                 immoral conduct, or other conduct prejudicial to the Postal
                                 Service.”

                                 We found:

                                     •   Three employees in the Northern Virginia District
                                         were found responsible for sexual harassment or
                                         inappropriate actions/comments. One was a
                                         manager/supervisor who was eligible for the Pay for
                                         Performance Program and was excluded.

                                     •   Three employees in the Richmond District were found
                                         responsible for sexual harassment or inappropriate
                                         actions/comments. Two were managers/supervisors
                                         who were eligible for the Pay for Performance
                                         Program and were considered for exclusion.

                                         – One manager/supervisor was given a “Notice of
                                           Proposed Reduction in Grade and Pay,” however;
                                           he took a voluntary downgrade and was excluded
                                           from the program for FY 2000.

                                         – The other manager/supervisor also took a
                                           voluntary downgrade but was not excluded, and
                                           received $2,038 in Pay for Performance.




5
 The Pay for Performance Program, formerly referred to as the Economic Value Added Program, was an incentive
award program for nonbargaining employees. The amount of money received by each employee was based on a
group achievement of performance targets and financial measurements.



                                                       5
                                            Restricted Information
Sexual Harassment Prevention Measures in the                                   LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations


                                      – District management stated exclusions from the
                                        program were evaluated on a case-by-case basis,
                                        and in this case it was determined that since the
                                        manager/supervisor acknowledged wrongdoing,
                                        the voluntary downgrade more than compensated
                                        for the inappropriate action.




                                                   6
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                                          LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations


 Most Complaints Not               Our audit disclosed that 12 of the 17 complaints were not
 Effectively                       effectively addressed in the Northern Virginia and Richmond
 Addressed                         Districts. Equal Employment Opportunity Commission
                                   guidelines defined an “effective” investigation as a prompt,
                                   thorough, and impartial review with documented evidence.
                                   Postal Service policy required managers to conduct sexual
                                   harassment inquiries promptly and investigate all
                                   complaints, and document “serious” complaints with detailed
                                   evidence.6

                                   We found that:

                                       •    Postal Service national policy did not require that “all”
                                            complaints be documented—only those that
                                            managers believed were “serious.”

                                       •    Of the nine formal and informal complaints filed in the
                                            Northern Virginia District, two were effectively
                                            addressed and seven were not.

                                            – For the seven not effectively addressed, four were
                                              not prompt, one was not thorough, and two were
                                              not investigated.

                                            – District management provided several reasons
                                              why complaints were not effectively addressed.
                                              For example, they said for the two complaints not
                                              investigated, the complaints were filed directly
                                              with the Equal Employment Opportunity office and
                                              that office did not notify district management. This
                                              precluded them from conducting their own
                                              investigation.

                                       •    Of the eight formal and informal complaints filed in
                                            the Richmond District, three were effectively
                                            addressed and five were not.

                                            – For the five not effectively addressed, two were
                                              not prompt and three were not investigated.


6
  Publication 552 was revised effective September 2001, and replaced the term “serious” with the statement “some
complaints can be resolved simply and directly between the parties without the need for a formal written record.” The
revised policy also provided that managers/supervisors needed to decide early in the process whether formal
documentation was warranted, and that a good rule of thumb was when in doubt, document.



                                                         7
                                              Restricted Information
Sexual Harassment Prevention Measures in the                                      LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations

                                      – District management stated they were not working
                                        in the district when the complaints were made and
                                        thus could not provide an explanation why
                                        complaints were not effectively addressed.

                              During this audit, the Northern Virginia District manager took
                              action to correct the problem we identified. He stated he
                              instructed the Equal Employment Opportunity office to notify
                              the district Human Resources or Labor Relations manager
                              of all sexual harassment complaints.

                              Complaints not effectively addressed could result in liability
                              because the Postal Service cannot demonstrate it exercised
                              reasonable care to prevent and promptly correct harassing
                              behavior. We believe the lack of a Postal Service policy
                              requiring documentation of all complaints and the lack of
                              communication between the Equal Employment Opportunity
                              office and district management may have been factors. We
                              will address these issues in a separate report.

 Recommendation               We recommend the manager, Capital Metro Operations,
                              instruct the Northern Virginia and Richmond District
                              managers to establish controls to ensure:

                                  1. Managers and supervisors effectively address all
                                     sexual harassment complaints and inappropriate
                                     actions/comments of a sexual nature and fully
                                     document detailed evidence of the actions taken to
                                     address complaints.

 Management’s                 Management agreed with the part of the recommendation
 Comments                     that managers and supervisors must effectively address all
                              sexual harassment complaints, consistent with the law and
                              Postal Service policy. They disagreed, however, with the
                              finding. They stated they firmly endorsed the concept that
                              sexual harassment cannot, and will not, be tolerated.
                              Management also said they recognized and supported their
                              responsibility to make every reasonable effort to prevent
                              sexual harassment and correct any sexual harassing
                              behavior. They said they believe their managers fulfilled
                              their obligations in that regard.

                              Management further stated that in support of their
                              obligations, they conducted fact-finding training for Postal
                              Service investigators in 2002, and will send in this fiscal



                                                   8
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                      LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations

                              year, memorandums to both craft and Executive and
                              Administrative Service employees, reiterating their
                              obligations regarding sexual harassment in the workplace.
                              They said the first memorandum will be mailed to Executive
                              and Administrative Service employees in quarter 3; and the
                              one to all employees, will be mailed in quarter 4.

                              Management disagreed with the part of the recommendation
                              to fully document detailed evidence of the actions taken to
                              address complaints stating this required management in
                              some instances, to depart from Postal Service policy that
                              “some complaints can be resolved simply and directly
                              between parties without the need for a formal written
                              record.” Management stated that Northern Virginia and
                              Richmond Districts were consistent with Postal Service
                              policy.

                              Management also stated that because our report proposed
                              changes to Postal Service policy, any changes to the policy
                              should be addressed at the national level, not area, and
                              should be referred to Postal Service Headquarters.

 Evaluation of                Management’s actions are responsive to the first part of our
 Management’s                 recommendation, however, they are not responsive and do
 Comments                     not meet the intent of the second part of the
                              recommendation. We believe documentation plays an
                              important role in determining credibility and mitigating
                              liability. Specifically, it provides a record of the action
                              management took to address and resolve sexual
                              harassment complaints. We believe that management’s
                              concern that following the recommendation would cause it to
                              depart from Postal Service policy is unfounded. Postal
                              Service policy is clear that serious complaints must be
                              documented, and further provides that “When in doubt,
                              document.” We believe the policy does not limit
                              management from documenting all actions; it simply
                              establishes a floor, not a ceiling for addressing complaints.

                              We agree with management that a change to national policy
                              should be referred to the headquarters level, and the report
                              states we will address this in our capping report to the senior
                              vice president, Human Resources. We believe however,
                              that by implementing the recommendation now, Capital
                              Metro Operations would be at the forefront of enhancing
                              their sexual harassment prevention program. We view the



                                                   9
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                    LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations

                              disagreement on this recommendation as unresolved and it
                              will be addressed in our capping report.

 Recommendation               We recommend the manager, Capital Metro Operations,
                              instruct the Northern Virginia and Richmond District
                              managers to establish controls to ensure:

                                  2. The Equal Employment Opportunity office notifies
                                     district management of all complaints of sexual
                                     harassment or inappropriate actions/comments of a
                                     sexual nature.

 Management’s                 Management agreed with our recommendation and stated
 Comments                     the district Equal Employment Opportunity office should
                              notify management of all complaints of sexual harassment
                              or inappropriate actions/comments. They stated this is
                              consistent with current Capital Metro Operations policy and
                              will send a memo to all district managers to reiterate the
                              present policy by February 14, 2003.

 Evaluation of                Management’s actions taken or planned should correct the
 Management’s                 issues identified in the report.
 Comments




                                                  10
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                          LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations


 File Retention and           Our audit found there was no Postal Service policy
 Storage Adequate             regarding the retention time for informal complaint files.
                              However, both districts retained informal complaint files
                              indefinitely and storage of files was also adequate.

                              Equal Employment Opportunity Commission guidance
                              stated formal sexual harassment complaint files should be
                              retained for at least 4 years after resolution of the complaint.
                              Postal Service policy stated once an inquiry/investigation
                              was conducted, files should be forwarded for storage, to the
                              district Human Resources manager. According to a
                              headquarters senior Postal Service manager, the intent of
                              this policy was to centrally locate the files with the Human
                              Resources manager.

                              Retaining and storing informal complaint files in a central
                              location ensures file availability if needed to mitigate liability.
                              We will address the need for a national retention policy in a
                              separate report.




                                                  11
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                    LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations


 Additional                   Management stated they were unable to confirm the
 Management’s                 referenced expenditure of $154,750 noted in the
 Comments                     background section of the report. Management further
                              stated the report made determinations of whether
                              complaints were effectively addressed based on
                              requirements that extended beyond current Postal Service
                              policy.

 Evaluation of                The $154,750 expenditure was contained in a report
 Management’s                 provided to us by the Postal Service Law Department. It
 Comments                     was used in our report as background information only, and
                              thus we did not conduct a verification of its accuracy. We
                              have clarified, however, that it was Postal Service data.

                              We disagree with management’s comment that the
                              requirements we used to determine effectiveness were
                              beyond current Postal Service policy. To determine
                              promptness, we used a standard that if action was taken
                              within 48-hours from when a complaint was received, it
                              would be considered prompt. This standard was based on
                              Equal Employment Opportunity Commission and Postal
                              Service guidelines, the definitions of “prompt” and
                              “immediate” (used in guidelines and policy), and discussions
                              with Postal Service Headquarters officials. In addition, the
                              standard was discussed with, and agreed to, by
                              headquarters officials prior to audit work. One vice
                              president told us he expected his managers or supervisors
                              to respond to a complaint within 24 hours.




                                                  12
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                                          LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations



          APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to determine if the Northern Virginia and Richmond Districts, in
Capital Metro Operations, implemented adequate policies and procedures to prevent
sexual harassment7 in the workplace and to effectively address sexual harassment
complaints to mitigate liability. Our district selections were based on interviews with the
senior vice president, Human Resources; vice president, Diversity Development; and
manager, Capital Metro Operations. We also considered the number of closed formal
sexual harassment complaints in each of the four Capital Metro Operations districts.

To accomplish our objective, we reviewed applicable laws, policies, procedures, and
other documents including Equal Employment Opportunity Commission guidelines;
Postal Service national policies; and the Capital Metro Operations, Northern Virginia
and Richmond District policies for preventing sexual harassment in the workplace. We
also reviewed Postal Service national policy regarding the Pay for Performance
Program. In addition, we reviewed previously issued OIG reports related to sexual
harassment issues. Further, we interviewed Postal Service Headquarters, Capital
Metro Operations, and Northern Virginia and Richmond District officials.

To determine if adequate policies and procedures were in place to prevent sexual
harassment from occurring in the workplace, we identified Equal Employment
Opportunity Commission key recommendations to agencies regarding policies and
procedures that should be in place to prevent sexual harassment and reduce the risk of
agency liability. We then reviewed the Postal Service national, Capital Metro
Operations, and Northern Virginia and Richmond Districts’ policies and procedures to
determine if the recommendations were included.

To determine whether district managers effectively addressed informal sexual
harassment complaints to mitigate liability, we analyzed the documentation contained in
formal and informal complaint files that were filed and closed8 in FYs 2000 and
2001,9 for the two districts we selected. We recorded information related to
promptness, thoroughness, impartiality, and the level of documentation. These fiscal
years were chosen because they were the most recent and complete fiscal years at the
time of our fieldwork. The number of formal and informal closed complaints was
obtained from the Postal Service Equal Employment Opportunity case file database and
district management, respectively. We then excluded those complaints where the
employees filed their complaints directly with the Equal Employment Opportunity office
and requested confidentiality. These were excluded because honoring the request for
7
  For the purpose of this report, we used the legal definition of sexual harassment as unwelcome sexual conduct that
is a term or a condition of employment (29 C.F.R. § 1604.11(a)). In addition, we included the Postal Service policy
regarding inappropriate actions/comments of a sexual nature when reviewing sexual harassment complaint files.
8
  Sexual harassment complaints may be considered closed for a number of reasons including (1) the
inquiry/investigation was completed, (2) a settlement had been reached, (3) the complaint was withdrawn, or
(4) discipline or corrective action was taken.
9
  We used Postal Service fiscal years that started September 11, 1999, and ended September 7, 2001.



                                                        13
                                              Restricted Information
Sexual Harassment Prevention Measures in the                                                        LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations

confidentiality precluded the Equal Employment Opportunity office from notifying district
management that a complaint had been made. This in turn precluded management
from conducting an investigation. We determined there were 17 closed complaint files
as follows:

                                                       Complaints                Total Complaints
                         District
                                                     Formal  Informal               Per District
          Northern Virginia                            4         5                      9
          Richmond                                     3         5                      8
            Total                                      7        10                      17

We also determined if the retention and storage of informal files were adequate using
Postal Service national, area, and district policies as well as Equal Employment
Opportunity Commission guidelines.

In addition, we determined whether employees found responsible for sexual harassment
received appropriate discipline using Equal Employment Opportunity Commission
guidelines, Postal Service policies and procedures, and some elements of the Douglas
Factors.10 We included in this determination whether or not managers or supervisors
found responsible for sexual harassment or inappropriate actions/comments were
considered for exclusion from the Pay for Performance Program.

This audit was conducted from February 2002 through January 2003 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
conclusions and observations with appropriate management officials and included their
comments, where appropriate.




10
  The Douglas Factors were developed as a result of case law (Douglas v. Veterans’ Administration) where the Merit
Systems Protection Board ruled that management must document certain factors to be considered in making a
determination of appropriate disciplinary action.



                                                       14
                                             Restricted Information
Sexual Harassment Prevention Measures in the                     LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations


                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                  15
                                        Restricted Information
Sexual Harassment Prevention Measures in the                     LH-AR-03-003
 Northern Virginia and Richmond Districts –
 Capital Metro Operations




                                                  16
                                        Restricted Information
